           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                               Date:    October 26, 2009
           Single Audit on the Los Angeles County Metropolitan
           Transportation Authority
           Report No. QC-2010-004
                                                                             Reply To    JA-20

  From:    Earl C. Hedges                                                     Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FTA, Region IX

           The U. S. Department of Transportation is the cognizant Federal single audit
           agency for the Los Angeles County Metropolitan Transportation Authority
           (Authority). This report presents the results of our Quality Control Review of a
           single audit performed by KPMG, LLP on the Authority for the fiscal year ending
           June 30, 2008. During this period of time, the Authority received about
           $277 million from five Federal Transit Administration (FTA) grant programs.

             DOT Operating               CFDA*     Program               FY 2008     Major Direct
             Administration                #        Name               Expenditures Program Award
               Federal Transit                    Capital Investment
                                         20.500                         $58,795,513       Yes     Yes
               Administration                      Grants Program
               Federal Transit                     Formula Grants
                                    20.507                             $216,199,979       Yes     Yes
               Administration                          Program
                                                        Public
              Federal Transit
                                    20.514         Transportation            $3,781        No     Yes
              Administration
                                                      Research
              Federal Transit                    Job Access Reverse
                                    20.516                               $2,078,228        No     Yes
              Administration                          Commute
              Federal Transit                       New Freedom
                                    20.521                                 $102,613        No     Yes
              Administration                           Program
           * Catalogue of Federal Domestic Assistance

           The Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations;” requires the auditor to render
           an opinion on the entity’s financial statements, identify potential inappropriate use
           of Federal funds, and report internal control and compliance deficiencies that
           affect Federal grant programs.

           KPMG rendered an unqualified (clean) opinion on the Authority’s financial
           statements, but questioned more than $3.3 million charged to FTA grant programs.
                                                                                                    2

In addition, KPMG identified, and made recommendations to correct, the
following internal control, and compliance deficiencies that directly affect FTA
programs. 1 Timely correction of these deficiencies is critical to ensuring proper
use of the upcoming American Recovery and Reinvestment Act (ARRA) funds.

       Inadequate controls in managing revenues generated from day
        passes issued by bus drivers,
       Noncompliance with FTA grant requirements in operating the school
        bus program, resulting in questioned costs of almost $3 million,
       Noncompliance with FTA grant matching requirements in
        calculating the Federal share of costs, resulting in questioned costs
        of almost $357,000,
       Failure to include suspension and debarment contract clauses and to
        search the Excluded Parties (contractors) List System when
        awarding procurement contracts, and
       Inadequate Disadvantaged Business Enterprise reporting to FTA.

The purpose of our review was to determine: (1) the adequacy of the auditor’s
work; (2) whether the work complied with Generally Accepted Government
Auditing Standards as prescribed by the Comptroller of the United States, the
Single Audit Act of 1984, as amended (Act), and OMB Circular A-133; and (3)
the extent to which we could rely on the auditor’s work.

RESULTS

Based on our Quality Control Review, we determined that KPMG’s work met the
requirements of Generally Accepted Government Auditing Standards, the Act, and
OMB Circular A-133. We found nothing to indicate that KPMG’s opinion on the
financial statements or reports on internal control and compliance were
inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.
                                                   #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Controller, Los Angeles County Metropolitan Transportation Authority



1
    We advised FTA about these deficiencies, especially the questioned costs in a separate memorandum.
    The single audit report issued by KPMG is available upon request. Requests should be sent to
    singleauditrequest@oig.dot.gov.
